    Dec, 3. 2009 1:54PM                                                                                              No, 0240         p, 3




(                                         Nntiouol nAill'OIl!1 l'osscugCI' COl'lJo},Rfion
                                               Officc of the Inspector General
                                                   Office of Iuvestlgatlolls

                                                         CLOSING n:El'OnT

             ))A'l'EI         October 27, 2009
             '1'0,
                              Depllty Inspector General/Connsel

             X/ROMI


             SnbJcel:         Closing Repo!'t Case t/ 09·056

             BACIWRO'OND

          Octobel' 27, 2009, the Office of Ihe Inspeclol' Geneml                                       Office of Investigations ("Or")
          Issued AMAnAgement Report to                                                                                    substantiated
         seveml nllegAlions mnde ngninst                                                                                  Tho bAsis for
          those AllegAtions was thAt                                                                              "bllsiness tmvel" [0
          commule from his residence in                                                 to                                  _hnd
          been advIsed by several subordinates thAt such Action was not only A                                      of AmtrAk Policy,
(         but IhM it wns ftll Abllse of his position to do so, _                                continued to do so witholl! regQrd to
         policy. _                             cont~ls position by dl'lvIng his company Assigned, GSA leased,
         vehicle to nnd f r o m _ , without Authori7.11tioll and used Amlrak lensed vehioles to
         ll.loiliVlLIoIliPiiolii'S.O!iiilo.1iifi.JI'iiiiflintro from hIs resldcnce In                        a temporary aparlment in
         i                                               . Additionally, _        repolied thnt      used tho GSA lensed vehiolo~ os
         his pmonal vehicle while off·duly.

         or substantlatcd several of tlio auovo listed Allcgatlons of Abuse by Mr. _     , 0] also
         ,~lIbslonlialed
                       sevoml othel' inslnllces of dishonosty by _      wllich wcre inoluded In the
         Mnuagemont Repolt.

         IlliCOMMENDA'fIONS TO MANAGEMENT!

         or issued a Manngement rep0l1 On Oclober 2'1, 2009 to Will/am CrosbIe wilh Ihe followinB
         l'ceollllllendAtions:

         Amtml< Manogement shollld require _                     to undergo a thorollgh bnc/( grollnd check if ho is (0
         be relalneel by Ihe company.

         Amtl'ak Mnllngement should considel' 'npproprialely disoiplining _fOl' the followingl'eAsons:

                I) He Abused his IJosition AS n mombo.' of Amtl'Ok MAnAgement by Instrllctln6 his
                   s\lbordinntes to book his commute to his plnce of residence and back 10 work os bonn fide
                   (vallo) "business travel" dC))l'ivina tho compnny of An avemgo rOVOI\\\O of $2,180,00 hnd
                   he compliod with AmtrAk policy. _ , nel/ons were ill direot violntion of Roil Poss
                   Polley. His eXCllSe thAt ho WAS 1I0t Infol'lllcd lacks credibility bccnuso ho has worked for


                                                                     I
    Nov, 25, 2009 J: IMM                                                                             No, 0200       p, 3




                  tho railroAd                                                          componies i$Suemi! }lasses
                  with the some allll'ltellUte

              2) Since OJ's second intolview with          01 h~s been Informed that _           hns booked
                 his commute to and from                   in the conch Cat' but IllIon boarding the train he
                 Indlcntos TO OSS nnd                 I AbOArd the' train thol he Is n membel' of Ihe
                 Executive Stflffolld nsks to be nccommodnte<l with n roomelto,


              3) _continues to utilize subordlnMO personnel as his pel'sonnl SOCiAl secrctal~
                 dcmanding that they uook travel for his wife, as recently as Septemuer 2-3. 2009, _
                 hos olso indic&ted to employees that he has 10strllcted his wife to identitY his position nS a
                 momber ofExocl1tivo Staff to enS\1I'6 Ulat sho Is upsrnded to a 1'00metto,


             4)            s responsos                          nnd fol$o whon he ndmilted driving 1\ GSA
                  comp""y vohiolo to                             only Onco Hnd lhot ho hnd conducted Amtrak
                  bllslness while .                             vcrified                    stnlement, ond Ihe
                  production of gos I'eceipts, Alld phollo l'Ccords that
                  assigned to tho Mochnniclll Depm1ment to his home in                                       01
                  sllbstontiAted that ho did so 01 leAst twico without mllhol'izatioll nnd without regard to tho
                  Ilnbility he Wn. potentiolly inollll'ing fOl' Amtrak. by the vehicles impropel' lise,
                  Additionally, tho cost oft\1C1 was absorbed by Amtmk at a cost of at leAst $221.91 which
                  WAS charged against the GSA Credit Cal'd as supported by reeolpts,
(
             5) 01 idenlified an Instance, whoro On April 8. 2009.            ill1pI'ollel'ly had his assistant
                                    the company FedEx aecolmt 10 selld tax papel's 10 his accountant_
                                  Ihon take responslbliity. he placed blame Oil his newly hired assistant,
                or had to walk_step by slep tlu'ough tho process beforo he would eonsidcl' that ho
                had fniled to give tho propel' Instrllctions to his aS8istont ond WAS responsible fol' Ihe
                misuse or the compnny Meount, UnforhmateIY,_attempled to negote 01's finding,
                when on July 31, 2009,_handcd his assistont a check fOl' $148,92 and Instntcted her
                to "make sernethlng up and tell them that it wss yOlt who made the errOl' (fol' the FedEx
                ond Hotel) and send them tltls cheell,"


             6) _           f.1lsely repol1ed to his superviSOl'S UIA! he had just received notifieotion of a
                "Family Emergenoy" which nccossltated that he depl1lt n conferonce ft dHY early to travel
                 homo to hnndle the family emorgenoy,                           to nclviso his SIIPOlVisOI',""".
                 thnt Iho family cmergenoy hnd                                             two weoks earlier, When
                01"initially ul'Onolied Iho subject. _sllIck to                story until OJ adviscd him that they
                 intended to check with Ihe police deportment whel'e Iho Incldont occl\l1'ed, 11 \Vas ouly
                        thot                  Ilted that the incident wilh his niece ocoUl'red two weeks eOl'lier in
                                               01 eontnoted the _Police Deportment and tho


                1'0POl'I
                flight
                             Sho,\'if!'< Offico both law onforcement
                       jlll'isdi,cticOlI in ond nrollncl


                expense I'CPOlt,
                                                                                     WCl'6 (ocRted In


                                                                                                          _s
                                                                               01 was llnoble 10 idenlify filly crimc
                                                                                viclim of_ Tho change to his
                                                                          50,00 which wns inoluded In




                                                            2
    I~OV,   n      LVV~     I: I bAM                                                                      No, 0100      p, 4




(
                     7) _         faiseiy olaimcd Ihat his flight on April I, 2009, (during this false "Family
                        Emergency") had nrJ'ived lato and duo 10 Ihe lale arrival he missed his cOl1nection whioh
                        rcqllil'cd him to take a hotel room fOl' the night at 0 cost of $144,99,01 had verified Iha!
                        his flight (Flight /11543) on that day WRsnot delayed anel had nrrived all limo, 01 advised
                        _        that thoy had vorified thai foct with         Police Depm1ll1ont, Airport Detail. It
                        \YnM only Ihen that. _Admitted Ihat his flight was 1I0t deloyed uul that hls_9
                        flight had beell dolayed nlld thnt he misrepresentcd thoso facts on his O~pOIlSO report,


                     8) 01 Identified    ",1 incident whore _hnd 1110do n VerbAl reqllcst to pllrchase a digital
                          cam om and beell denied by his supervisor _                 who inslructed him to utiJlzo the
                          camora On his coli phono, _              direoted his sUbordlnato            10 pUl'citnso tho
                          digj,tnl comOl'a allyway with his               P-card. _                      direction and
                          purchased tho digitnl cnmem nlld pI:escllted It 10 _        , .sllumilted a pUl'chaso ol'dol'
                          whioh WAS Ihell officially dOllied by                Oll May 11,2009, howevcr it took_



                     9)   _s
                          an "«ditiollnl 18 days to l'OtUl'll Iho camera,


                                    attendance record, as
                          without regRl'd to Amtmk's polloy, F11I1her,
                          verilY that _      was actually in nttendance,
                                                                           .Hows him to ta~tilile he chooses
                                                                                   tasked _           to look Into alld
                                                                                     stated to or thnt tho method Ite
                          utilized ill moking thnt delennlnallon was calilng           on his cell phone,
                          reasoncd that i f _ answel'ed the call, _IVa, world II£!, That melhod was flawed
                          becnnse the cell phone would ring at any 10catiol1 a towel' could I'eeoive Ihe h'Ollsmlssloll,
(                         A Illore reasonable method to confirm his presence at n particular work site should have
                          been utilized (I,n, A lAnd lille cali might have been mor6 I'onsonnblo ill estabflshlng that
                          _was ot a particlllor location),


                     10) 01 determined thnt_failed 10 dooulllcnt his siclc timo and pel'sollol timo ill SAP as
                         reqilired by Amtrak Policy, _       took 110 I'Cspollsibility for allY of his fhilllres but very
                         quickly shifted tho blame to his mlstan!.


                    II) Amtrak Management shollid enslIre that _             repay Amtrak for Iho costs associated
                        with his miSIISO of his rail pass prlvllegos alld allY olhor fHlsifieotiolls sllull1ltted by 111m
                        And Ilsed 10 j\lstify reimumsements paid to him, alellg with lhose that hovo be on




                                  _s
                        idontified in this I'¢porl.


                    12) Pinally,         abllso ofltis Rail Pass pl'lvllegc sllollid bo considered nlld Amlmk Polioy
                        bo applied regArding his persol13111S0 of the pass, Suoh ObllSOS inlile past have I'cqllircd
                        thnt tho employceloso tho \150 oftlto rail pass,

                MANAGEMENT'S RESPONSE:

                On Novembor 25, 2009, 01 I'l!ceived a rcspoJlso fi'Om Mr. Crosbie whioh stated:

                "This is ill rosponso 10 YOllr Octobor 27, . ' ManageTellt Re.ort addressed to mo regarding
                cCI1aln activitlos illvolvillg                                   I WAS VCl'y disturbed by Iho


                                                                   3
      IvOV.n     LUU~   1:10AM                                                                    No. 0200     P. 5
. ,



               facts uncovercd In this rOil art and quickly determined thot wo would adopt tho               om
               recommondntion.

               Based on tho information contnlned In the report nnd Ihe nttnched exhibils, nno nfter eonferl'in(\
               with legAl cOlln,el, wo tcnninoted Mr.       's employment effective closo of business October
               ;1,9. 2009. Given th~t we took those ImmediAta ~Ieps. and ngnin nftel' di,enssion with legAl
               counsel. I determined thnt wo wOllld forego ~ny Altolllllt to seel( rolmbnrsomen! t\'om Mr. _
               for any nmounts which might ba owed to Amlmk due to his 1ll1authorizecl nctivilfes.

               I appreclata Ihe Ihorough investigolioll and development of fActs contained In this report. Pleasa
               do not hesitnto 10 contnct mo If you have any questiolls."

               l'lECOMMENDA1'lONS,


               this monnge l' frolll his position.            ~              If;tl7
               Closo Ihis casa. ManAgement hns tnken tho lIeeossOlY stops to eorrcct Ihls abuse by tormlnating




                                                                   dT




                                                             4
